UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-3538

Chris Allen Miller
Petitioner - Appellant
v.
Marty J. Jackley, Attorney General; Darin Young, Warden
Respondents - Appellees
Appeal from U.S. District Court for the District of South Dakota - Southern
(4:18-cv-04137-KES)
JUDGMENT

Before SHEPHERD, ERICKSON, and STRAS, Circuit Judges.
This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
April 13,2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-3538
Chris Allen Miller
Appellant
v.
Marty J. Jackley, Attorney General and Darin Young, Warden
Appellees

Appeal from U.S. District Court for the District of South Dakota - Southern
(4:18-cv-04137-KES)
ORDER
The petition for rehearing by the panel is denied.
May 21,2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Case 4:18-cv-04137-KES Document 23 Filed 09/10/19 Page 1 of 4 PagelD #: 335

UNITED STATES DI STRICXXG1IRT
DISTRICT OF SOUTH DAKOTA
SOUTHERN DIVISION

CHRIS ALLEN MILLER,

4:18-CV-04137-KES

Plaintiff,
ORDER GRANTING MOTION FOR
LEAVE TO PROCEED IN FORMA
PAUPERIS ON APPEAL

vs.
DARIN YOUNG, WARDEN; AND MARTY
J. JACKLEY, ATTORNEY GENERAL;
Defendants.

Plaintiff, Chris Allen Miller, filed a pro se petition for writ of habeas
corpus pursuant to 28 U.S.C. § 2254. Docket 1. Judgment was entered against
Miller and he filed a notice of appeal. Dockets 18 and 19. Miller filed a motion
for leave to proceed in forma pauperis on appeal without repayment of fees and
filed his prisoner trust account report. Dockets 20 and 21.
Under the Prison Litigation Reform Act (PLRA), a prisoner who “files an
appeal in forma pauperis . . . [is] required to pay the full amount of a filing
fee.” 28 U.S.C. § 1915(b)(1). This obligation arises
prisoner .

u (

the moment the

files an appeal.’ ” Henderson v. Norris, 129 F.3d 481, 483 (8th Cir.

1997) (quoting In re Tyler, 110 F.3d 528, 529-30 (8th Cir. 1997)). Therefore,
a <

[wjhen an inmate seeks pauper status, the only issue is whether the inmate

pays the entire fee at the initiation of the proceedings or over a period of time

Case 4:18-cv-04137-KES Document 23 Filed 09/10/19 Page 2 of 4 PagelD #: 336

under an installment plan."' ia.
601, 604 (6th Cir. 1997)). “[Prisoners who appeal judgments in civil cases
must sooner or later pay the appellate filing fees in full.” Id. (citing Newlin v.
Helman, 123 F.3d 429, 432 (7th Cir. 1997)).
In Henderson, the Eighth Circuit set forth “the procedure to be used to
assess, calculate, and collect” appellate filing fees in compliance with the
PLRA. 129 F.3d at 483. First, the court must determine whether the appeal is
taken in good faith. Id. at 485 (citing 28 U.S.C. § 1915(a)(3)). Then, so long as
the prisoner has provided the court with a certified copy of his prisoner trust
account, the court must “calculate the initial appellate partial filing fee as
provided by § 1915(b)(1), or determine that the provisions of § 1915(b)(4)
apply.” Id. The initial partial filing fee must be 20 percent of the greater of:
(A)
(B)

the average monthly deposits to the prisoner s account, or
the average monthly balance in the prisoner’s account for the 6month period immediately preceding the filing of the complaint or
notice of appeal.

28 U.S.C. § 1915(b)(1). Nonetheless, no prisoner will be “prohibited from . . .
appealing a civil or criminal judgment for the reason that the prisoner has no
assets and no means by which to pay the initial partial filing fee. ’’ 28 U.S.C.
§ 1915(b)(4).
It appears that Miller’s appeal is taken in good faith. Further, he has
provided the court with a report of his prisoner trust account, which indicates
that he has average monthly deposits to his prisoner trust account of $59.04 and
an average monthly balance of $24.07. Docket 21. Based on this information,
the court grants Miller’s leave to proceed in forma pauperis on appeal provided

Case 4:18-cv-04137-KES Document 23 Filed 09/10/19 Page 3 of 4 PagelD #: 337

he pays

ht1

i»iiim1 pri-H-ml-filingTee nf $11.81 „■ which, is 20 percent of $59.04.

Miller must pay this initial partial filing fee by„October 11, 2019:
In order to pay his filing fee, Miller must “make monthly payments of 20
percent of the preceding month’s income credited to the prisoner’s account.’
28 U.S.C. § 1915(b)(2). The statute places the burden on the prisoner’s
institution to collect the additional monthly payments and forward them to the
Court as follows:
After payment of the initial partial filing fee, the prisoner shall be
required to make monthly payments of 20 percent of the preceding
month’s income credited to the prisoner’s account. The agency
having custody of the prisoner shall forward payments from the
prisoner’s account to the clerk of the court each time the amount
in the account exceeds $10 until the filing fees are paid.
28 U.S.C. § 1915(b)(2). The installments will be collected pursuant to this
procedure.
The clerk of the court will send a copy of this order to the appropriate
financial official at Miller’s institution. Miller will remain responsible for the
entire filing fee, as long as he is a prisoner, even if the case is dismissed at
some later time. See In re Tyler, 110 F.3d 528, 529-30 (8th Cir. 1997).
IT IS ORDERED:
1. That Miller’s motion to proceed in forma pauperis on appeal (Docket
20) is granted.
2. The institution having custody of Miller is directed that whenever the
amount in Miller’s trust account, exclusive of funds available to him in
his frozen account, exceeds $10.00, monthly payments that equal 20
percent of the funds credited the preceding month to the Miller’s trust

w-

Case 4:18-cv-04137-KES Document 23 Filed 09/10/19 Page 4 of 4 PagelD #: 338

ainrnnnr <;ha11 he fin wm iIhiI in the. U.S. Dintrict Court Clerk’s Office
under to 28 U.S.C. § 1915(b)(2), until the $505 appellate filing fee is
paid in full.
DATED September 10, 2019.
BY THE COURT:

/s/Karen (E, Schreier
KAREN E. SCHREIER
UNITED STATES DISTRICT JUDGE

Case 4:18-cv~04137-KES Document 27 Filed 11/19/19 Page 1 of 2 PagelD #: 345

UNITED STATES DI3TRICT COURTDI STRICT OF SOUTH DAKOTA
SOUTHERN DIVISION
4:18-CV-04137-KES

CHRIS ALLEN MILLER,
Movant,
vs.
DARIN YOUNG, WARDEN; AND MARTY
J. JACKLEY, ATTORNEY GENERAL;

AMENDED ORDER GRANTING
MOVANT’S MOTION FOR LE AVE TO
PROCEED IN FORMA PAUPERIS ON
APPEAL

Respondents.
Plaintiff, Chris Allen Miller, filed a pro se petition for writ of habeas
corpus pursuant to 28 U.S.C. § 2254. Docket 1. Judgment was entered against
Miller and he filed a notice of appeal. Dockets 18 and 19. The court denied
Miller a certificate of appealability. See Docket 17.
Miller filed a motion to proceed in forma pauperis on appeal without
repayment of fees and filed his prisoner trust account report. Dockets 20 and
21. His prisoner trust account report indicates that he has average monthly
deposits to his prisoner trust account of $59.04 and an average monthly
balance of $24.07. Docket 21. Based on this information, the court finds that
Miller has insufficient funds to pay the $505.00 appellate filing fee and his
motion for leave to proceed in forma pauperis on appeal (Docket 20) is granted.

Case 4:18-cv-04137-KES Document 27 Filed 11/19/19 Page 2 of 2 PagelD #: 346

IT IS ORDERED:
1. That Miller’s motion to proceed in forma pauperis on appeal (Docket
20) is granted.
DATED November 19, 2019.
BY THE COURT:

/s/Karen CE. Scfreier•
KAREN E. SCHREIER
UNITED STATES DISTRICT JUDGE

